Audit of Management of the
Government Purchase Card
Program, Number A-13-04




Smithsonian Needs to
Improve Preventative
Controls for the Purchase
Card Program




Office of the Inspector General
Report Number A-13-04
March 31, 2014
         Smithsonian Institution
        Office of the Inspector General

                                 Smithsonian Needs to Improve Preventative
In Brief                         Controls for the Purchase Card Program,
                                 Report Number A-13-04, March 31, 2014



Why We Did This Audit             What We Found

The Smithsonian                   We found that the Smithsonian generally exercised effective
management has a                  management and oversight of the Smithsonian Purchase Card
heightened interest in            Program. In general, the purchase card transactions we reviewed
reducing the risk of misuse,      were appropriate for the mission of the purchasing unit. However,
fraud, waste, and abuse in        we determined that some additional preventative controls could
such vulnerable areas as          improve the program.
cash processing and
purchasing. Purchase cards        We found that approving officials were not always approving
allow the same individual to      purchase card transactions in the Smithsonian’s financial system
order, pay for, and receive       or documenting their review of cardholder purchase logs and
goods and services. If            credit card statements as required by Smithsonian policies and
purchase card internal            procedures.
controls are not properly
designed, it will be difficult    We also found that the management had not blocked Merchant
for management to detect          Category Codes that allow certain high-risk transactions, such as
and prevent fraudulent            purchases of jewelry, watches, furs, and alcohol. In addition,
purchases or improper uses        Smithsonian had not fully implemented best practices to ensure
of the cards.                     effective strategic sourcing when employees use government
                                  purchase cards to acquire commonly purchased goods and
Our audit objective was to        services.
determine if the
Smithsonian exercises             Lastly, we found that the Smithsonian may have inappropriately
effective management and          paid state and local sales taxes on purchase card transactions.
oversight of the
government purchase card          What We Recommended
program.
                                  To strengthen the Purchase Card Program, we recommended that
Background                        management: reinforce the need for approving officials to timely
                                  approve transactions in the Smithsonian’s financial system;
The Smithsonian uses              evaluate restrictions on Merchant Category Codes; develop and
purchase cards to reduce          implement a strategic sourcing program that encompasses all
the administrative cost of        procurement methods, including purchase card transactions;
small dollar purchases,           develop thresholds for recovering erroneous tax payments.
incurring over $27 million in
expenditures for 100,498          Management generally concurred with our findings and
transactions from October         recommendations and has planned corrective actions to address
1, 2011 through December          the recommendations. We will continue to monitor management’s
31, 2012. At the end of           progress towards completion of these recommendations.
2012, there were 658 open
purchase card accounts             For additional information or a copy of the full report, contact the
issued to Smithsonian              Office of the Inspector General at (202) 633-7050 or visit
personnel.                         http://www.si.edu/oig.
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL



                                   INTRODUCTION

This report presents the results of our audit of the Smithsonian’s Purchase Card
Program. The objective of the audit was to determine if the Smithsonian exercises
effective management and oversight of the Smithsonian Purchase Card Program.
The purpose of the Purchase Card Program is to reduce administrative costs and
time for purchasing and paying for goods and services by using purchase cards, a
type of charge card.

The Smithsonian participates in a government-wide contract with the General
Services Administration (GSA) through the Department of Commerce. This contract
facilitates the issuance of charge cards for use by agencies in support of their
procurement activities. The Smithsonian uses purchase cards that are issued by
JPMorgan Chase & Co. (JPMC). In addition to the purchase cards, the Smithsonian
also uses travel and fleet cards issued by JPMC.

A detailed description of our objectives, scope, and methodology is included in
Appendix A.

                                   RESULTS IN BRIEF

We found that the Smithsonian generally exercised effective management and
oversight of the Smithsonian Purchase Card Program. The Smithsonian had
implemented policies and procedures that provided sufficient guidance and
adequate oversight over purchase card activity. We found that, in general, the
transactions we reviewed were appropriate for the mission of the purchasing unit.
However, we determined a need to strengthen controls in the following areas: (1)
oversight of approving officials; (2) restrictions on merchant category codes
(MCCs); (3) strategic sourcing; and (4) payment of sales tax.

Oversight of Approving Officials

We found that approving officials were not always approving purchase card
transactions in PeopleSoft, increasing the risk of fraud and misuse of Smithsonian
funds. Specifically, approving officials did not approve over 2,100 purchase card
transactions, amounting to approximately $350,000, in PeopleSoft. In addition, of
the 84 cardholders and approving officials contacted for purchase card transaction
documentation, we saw evidence of approving officials’ reviews on less than half of
the documentation provided.

To ensure that purchase card transactions are appropriately reviewed, we made
two recommendations for OCon&PPM management to reinforce the provisions of
Smithsonian Directive (SD) 322, Charge Card Program Desk Reference and Training
Manual and to conduct periodic on-site reviews.




                                          1
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


Restrictions on Merchant Category Codes

The Smithsonian’s Purchase Card Program had not blocked some merchant
category codes assigned to higher risk merchants, such as jewelry stores, furriers,
and liquor stores. We recommended that OCon&PPM evaluate restrictions on MCCs
to identify additional codes that should be blocked to prevent unallowable
purchases.

Strategic Sourcing

The Smithsonian had not fully implemented required practices to ensure effective
strategic sourcing when employees use government purchase cards to acquire
commonly purchased goods and services. We determined that Smithsonian
purchase cardholders spent less than $500,000, or 2 percent of purchase card
transactions during the 15-month period, on low-cost strategic sourcing vendors,
such as those selected by GSA, to help reduce purchasing costs.

We made two recommendations to OCon&PPM management to develop and
implement a strategic sourcing program that encompasses all procurement
methods, including purchase card transactions, as well as increasing purchase
cardholders’ use of strategic sourcing vendors.

Sales Tax

We found that the Smithsonian may have inappropriately paid state and local taxes
on purchase card transactions. According to transaction reports from JPMC’s
PaymentNet system, the Smithsonian potentially paid up to $26,000 in state and
local taxes for transactions made during the scope of the audit. We also found that
the Smithsonian may have potentially paid an additional $77,600 in taxes between
fiscal years 2009 through 2011.

We recommended that OCon&PPM management develop thresholds for recovering
erroneous tax payments and initiate corrective action when necessary.

Management generally concurred with our findings and recommendations and has
proposed corrective actions that will address the recommendations. Please refer to
Appendix B for management’s complete response.

                                  BACKGROUND
Roles and Responsibilities

The Director of the Office of Contracting and Personal Property Management
(OCon&PPM) is responsible for overseeing the procurement of goods and services.
The Charge Card Program manages Smithsonian-issued purchase, fleet, and travel
cards. The Director of OCon&PPM delegates authority and responsibility for the day-
to-day management and oversight of the Charge Card Program to the Charge Card
Program Manager. The Charge Card Program Manager is responsible for the
                                          2
SMITHSONIAN INSTITUTION                                       OFFICE OF THE INSPECTOR GENERAL


Purchase Card Program, which includes: ensuring that initial and refresher training
is available for purchase cardholders and approving officials; reviewing purchase
card transactions; and conducting on-site reviews to confirm compliance with
purchase card program policies and procedures. In addition, the Charge Card
Program Manager is responsible for implementing a strategic sourcing plan1 to
analyze how purchase cardholders spend funds in order to ensure that the
Smithsonian is leveraging its purchasing power.

At the unit level, directors, approving officials, and cardholders share responsibility
for appropriate purchase card use. Directors are responsible for nominating
qualified employees to be purchase cardholders and approving officials in their
units.

In addition to other oversight responsibilities, approving officials must approve
cardholder charges each month in the Smithsonian’s financial system (PeopleSoft)
within the time designated by the Charge Card Program Manager. Cardholders must
assure that they use the purchase cards properly and only for authorized purposes
as defined by Smithsonian purchase card policies and procedures. Cardholders are
also responsible for reconciling their purchase card transaction log to the purchase
card transactions listed in PeopleSoft within the time designated by the Charge
Card Program Manager. Additionally, they must review and sign monthly paper
statements received from JPMC and immediately notify JPMC of any billing
discrepancies posted on the account. Cardholders are responsible for ensuring
purchase card transactions do not include sales tax, as prohibited by Smithsonian
purchase card policies and procedures and the Office of Management and Budget
(OMB).

Preventative Controls

The Smithsonian has implemented several preventative controls to minimize the
risk of fraudulent, improper, or abusive purchase card use. The Charge Card
Program Manager assigns each purchase card a single transaction limit, as well as a
monthly purchase limit. Typically, the single transaction limit within the
Smithsonian is $3,000. However, there are cardholders who have single transaction
limits up to $60,000, depending on the needs of their unit. Cardholders may submit
requests to the Charge Card Program Manager to raise their single transaction or
monthly purchase limits. The Smithsonian also uses MCCs, which identify the
nature of a business, to prevent inappropriate card usage. For example, MCCs can
be used to block purchases from merchants that are more likely to be considered
improper, such as online dating businesses, jewelry stores, furriers, liquor stores,
casinos, and pawn shops.




1
  According to the Office of Management and Budget, strategic sourcing is the collaborative and
structured process of critically analyzing an organization’s spending and using the information to make
business decisions about acquiring certain items more effectively and efficiently.
                                                  3
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL


Volume of Purchase Card Usage

During the fifteen-month period we reviewed, from October 1, 2011 through
December 31, 2012, Smithsonian purchase cardholders made 100,498 purchases
amounting to over $27 million. Since entering into the agreement with JPMC in
fiscal year 2008, the Smithsonian has spent an average of $22 million in 86,000
purchase card transactions per year. As of December 31, 2012, the Smithsonian
had 658 active purchase card accounts.


               Dollars Spent                                Number of Transactions
         Fiscal Years 2008 - 2012                           Fiscal Years 2008 - 2012
                                                  100,000
 25,000,000                                        90,000
                                                   80,000
 20,000,000                                        70,000
                                                   60,000
 15,000,000                                        50,000
 10,000,000                                        40,000
                                                   30,000
  5,000,000                                        20,000
                                                   10,000
         0                                              0
              FY 08 FY 09 FY 10 FY 11 FY 12                  FY 08 FY 09 FY 10 FY 11 FY 12



By using purchase cards to pay for transactions during fiscal year 2012, the
Smithsonian estimated that it reduced administrative costs associated with
purchasing by an average of $503,000 per month.

                                     RESULTS OF AUDIT

Approving Officials Need to Increase Oversight of Purchase Card
Transactions

We found that approving officials were not always approving purchase card
transactions in PeopleSoft, as required by Smithsonian policies and procedures. We
determined that approving officials did not approve over 2,100 of 100,498 purchase
card transactions, amounting to over $350,000, in PeopleSoft. Approving officials
did not approve transactions for items such as electronics, computer equipment,
office supplies, laboratory equipment, and clothing.

Moreover, approving officials did not always document their review of cardholder
purchase logs and credit card statements, as required by Smithsonian policies and
procedures. We contacted 84 cardholders and approving officials for purchase card
documentation. We saw evidence of approving officials’ reviews on less than half of
the documentation provided.

According to SD 322, the Charge Card Program Manager delegates authority for
day-to-day management of purchase card activity to approving officials at the
                                              4
SMITHSONIAN INSTITUTION                                                     OFFICE OF THE INSPECTOR GENERAL


individual units. Smithsonian purchase card policies and procedures require that
approving officials:

    •      Conduct monthly reviews of the cardholders’ purchase card transaction logs
           to ensure that cardholder documentation is adequate and to ensure that the
           cardholder reconciled the purchase card documentation to the monthly paper
           statement issued by JPMC;

     •      Approve cardholders’ charges each month in PeopleSoft within the time
            period designated by the Charge Card Program Manager, generally within
            two weeks before posted transactions are paid; and

     •      Review and sign the cardholders’ monthly paper statements issued by JPMC.

                         Purchase Card Transaction Approval Process




                                  Aproving Officials review
           Approving Officials      purchase card logs to                                      Charge Card Program
                                                                     Approving Officials
            confirm that all         ensure adequacy of                                       staff review PeopleSoft
                                                                  ensure that transactions
            purchases were               cardholder                                            reports to determine
                                                                    are approved within
         appropriate and made        documentation and                                       whether the transactions
                                                                        PeopleSoft.
          with available funds.    evidence of cardholder                                         were approved.
                                       reconciliation.




Source: Smithsonian Purchase Card Policies and Procedures


SD 322 also states that the Charge Card Program Manager conducts on-site reviews
to confirm that cardholders and approving officials are in compliance with purchase
card policies and procedures. Charge Card Program staff are responsible for
monitoring on-line approvals within PeopleSoft and may cancel or suspend
purchase cards or revoke approval authority for continued non-compliant
approvers. In addition, charge card program management should conduct periodic
reviews of cardholder records, as recommended by GSA’s Guide to Best Practices
for Purchase and Travel Charge Card Program Management.

Approving officials did not provide adequate oversight of cardholders for a number
of reasons:

    •      The Smithsonian allowed purchase card transactions to be paid even though
           approving officials did not verify and approve transactions in PeopleSoft
           within the allotted time. The Charge Card Program Manager told us that they


                                                              5
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


       accepted the risk of paying for unapproved purchases to ensure the
       Smithsonian promptly paid its monthly charge card bill.

   •   Approving officials face minimal consequences for not approving transactions
       in PeopleSoft. The Charge Card Program Manager notifies cardholders and
       approving officials of monthly deadlines to approve transactions. Every
       month, he contacts the approving officials who have not approved purchase
       card transactions in the financial system within the allotted time. Although
       the Charge Card Program staff identified individuals who repeatedly failed to
       approve transactions, no action was taken to cancel or suspend purchase
       card authority for approving officials who frequently did not approve
       transactions within the allocated time.

According to the Charge Card Program Manager, due to time constraints and other
priorities, the Program staff did not conduct required on-site reviews to determine
whether approving officials were reviewing cardholder transactions. Most of the
staff’s oversight of purchase card activity is comprised of their monthly reviews of
transaction data from JPMC and not on cardholder documentation. In addition, they
contact cardholders regarding questionable transactions and forward potentially
fraudulent cases to investigators in the Smithsonian’s Office of the Inspector
General and Smithsonian management when necessary.

When approving officials are not diligent in their monitoring and approval of
purchase card transactions, there is a greater likelihood that cardholders may make
inappropriate purchases, potentially resulting in an increased risk of fraud and
misuse of Smithsonian funds. As a result, the Charge Card Program staff is forced
to spend additional time researching and resolving questionable purchases that
should have been addressed by the approving officials at the unit level. Charge
Card Program staff could use this time to conduct periodic on-site reviews or
research opportunities to leverage the Smithsonian’s purchasing power in order to
reduce costs.

In addition, the lack of documentation of approving officials’ purchase card reviews,
at the unit level, makes it difficult for the Smithsonian Charge Card Program staff to
assess compliance with Smithsonian purchase card policy, as well as to determine
whether the purchase was appropriate and relevant to the unit’s mission.

Recommendations

To ensure that purchase card transactions are appropriately reviewed and
approved, we recommend that the Director, Office of Contracting and Personal
Property Management:

   1. Continue to reinforce to Smithsonian units that the provisions of SD 322
      require that approving officials approve transactions in the Smithsonian’s
      financial system within the established timeline.


                                          6
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


   2. Conduct periodic on-site reviews to ensure that approving officials review and
      sign cardholder transaction logs and credit card statements, as required by
      SD 322, Desk Reference and Training Manual, Section 4.8.5; and, based on
      the results of these reviews, take appropriate corrective action.

Management provided support for completion of recommendation 1. We confirmed
that management reinforced to approving officials that transactions must be
approved in the Smithsonian’s financial system within the established timeline. We
will close this recommendation effective the date of this report.

All High-Risk Merchant Category Codes not Blocked

Although the sample of purchase card transactions we reviewed did not identify any
inappropriate purchases, we found that Smithsonian purchase cardholders made 87
purchases, amounting to approximately $48,000, at 27 jewelry stores, watch and
jewelry repair stores, furriers, and liquor stores. We selected a sample of these
purchases and found no inappropriate transactions. Although the Charge Card
Program has placed restrictions on other high-risk MCCs, by not blocking these
specific high-risk MCCs, the Charge Card Program allows all cardholders—not just
those who have a legitimate need—to make purchases at these types of merchants.

OMB guidance on the management of charge card programs recommends that
agencies “block” or restrict purchases with vendors assigned high-risk merchant
category codes to mitigate waste, fraud, and abuse. GSA and other agencies’
guidance for charge card programs recommend that certain MCCs, such as those
assigned to jewelry and liquor stores, remain blocked to prevent improper
purchases. The Smithsonian Charge Card Program Manager has the ability to
unblock, or lift, codes to allow transactions for specific purchases to be processed.

Although the purchases we reviewed were appropriate, other cardholders are also
able to make these types of purchases because the Smithsonian’s Purchase Card
Program has not placed blocks on all high-risk MCCs. The Smithsonian Charge Card
Program Manager explained that due to the variety of purchases made by
Smithsonian cardholders, these particular high-risk MCCs should remain unblocked.
According to the Charge Card Program Manager, cardholders may need to purchase
items from vendors with these high-risk merchant category codes for a number of
reasons.

In order to assess the legitimacy of these 87 purchases, we tested a sample of 21
transactions made at these high-risk stores. For each transaction in this sample, we
reviewed receipts, purchase card logs, and other supporting documentation. We
also discussed the purpose of the purchases with the cardholders or approving
officials. We concluded that all of the purchases we sampled were legitimate. For
example, a cardholder purchased items from jewelry stores for resale at museum-
operated gift shops. In another example, cardholders purchased alcoholic
beverages using trust funds for special events at museums, such as exhibit
openings—a permissible use of funds in accordance with Smithsonian policy.
                                          7
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


Cardholders also purchased beaver fur pelts and other items made from fur for use
in exhibits.

The Charge Card Program Manager also told us that blocking these codes would
create an administrative burden on the staff to constantly review cardholder
requests to unblock, or lift, codes to make these purchases. However, we do not
believe that responding to requests to lift codes would create a significant amount
of additional work for the Charge Card Program staff. For example, during the
period from October 2011 through December 2012, there were only 87 purchases
from jewelry stores, watch and jewelry repair stores, furriers, and liquor stores—an
average of approximately six transactions a month.

The Charge Card Program staff also stated that blocking these MCCs is unnecessary
because they believe their monthly review of purchase card transactions provides
adequate detection of possible purchase card misuse. However, by only reviewing
monthly, there is an increased likelihood that an inappropriate transaction may go
undetected for several weeks. We believe that by allowing all cardholders to make
purchases from merchants with high-risk MCCs, the Smithsonian elevates the
potential for cardholder misuse or abuse. Although we found cardholders in our
sample had legitimate reasons for making purchases from merchants with high-risk
MCCs, we believe the program staff could reduce the risk of improper purchases by
imposing some restrictions on particularly high-risk MCCs for all cardholders.

Recommendation

In order to reduce the risk of improper purchase card transactions, we recommend
that the Director, Office of Contracting and Personal Property Management:

   3. Evaluate restrictions on particularly high-risk MCCs to identify those that
      should be blocked to prevent unallowable purchases.

Minimize Purchasing Costs through Strategic Sourcing

The Smithsonian participates in GSA’s government-wide charge card program. OMB
Circular A-123 Appendix B requires agencies to develop and implement policies and
practices that ensure effective strategic sourcing through purchase card
transactions. Therefore, we believe the Smithsonian should follow the best
practices, as set forth in Appendix B. These policies and practices include:

   •   A thorough spend analysis of purchase card data;

   •   A balanced approach considering socio-economic goals and prioritized
       objectives, if applicable;

   •   Performance measures to assess progress toward achieving agency strategic
       sourcing goals;


                                          8
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL


   •   Establishment of key roles and responsibilities, including identification of the
       official responsible for achieving agency strategic sourcing goals;

   •   Communication and training strategy; and

   •   Development of internal control mechanisms to ensure agency compliance.

The Smithsonian has not fully implemented these best practices to ensure effective
strategic sourcing when employees use government purchase cards to acquire
commonly purchased goods and services. In line with GSA guidance in OMB Circular
A-123 Appendix B, the Smithsonian offers cardholders training on the use of
agency-wide contracts and GSA-approved vendors; however, it had not
implemented other requirements of a strategic sourcing program. For example, the
Smithsonian had not implemented the following practices established by OMB: (1)
analyzing purchase card spending data to assess the effectiveness of the strategic
sourcing efforts, (2) developing purchase card strategic sourcing goals, (3)
identifying an official responsible for achieving strategic sourcing goals, or (4)
developing internal control mechanisms to ensure agency compliance. During the
audit, we observed that the Smithsonian spent approximately $27 million for
purchase card transactions. However, the Smithsonian spent less than $500,000 or
2% of purchase card transactions with vendors approved by GSA to help federal
agencies reduce purchasing costs.

The Smithsonian is not actively utilizing strategic sourcing as it relates to purchase
card spending because:

   •   The Smithsonian Charge Card Program has not fully implemented a
       comprehensive approach to strategic sourcing which should establish agency
       strategic sourcing goals and performance measures for purchase cards, as
       encouraged by OMB. For example, OCon&PPM staff were not required to
       analyze purchase card spending data to ensure that units were using
       strategic sourcing for purchase card transactions to leverage the
       Smithsonian’s purchasing power and reduce costs, as recommended by OMB.

   •   Although the Charge Card Program provides approving officials and
       cardholders with information about the strategic sourcing opportunities
       through its directive, training, and website, cardholders are permitted to
       purchase from any vendor they prefer. For example, cardholders can
       purchase from vendors other than those selected by GSA or the Smithsonian.
       Furthermore, the Charge Card Program Manager informed us that some
       cardholders do not use GSA-identified vendors because they have been able
       to independently negotiate lower prices.

Failure to conduct spending data analysis related to purchase card purchases
prevents the Smithsonian from identifying opportunities to further reduce the costs
of purchase card transactions. This is especially important in the current
environment of reduced federal appropriations. The Smithsonian Purchase Card
                                           9
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


Program is not taking greater advantage of multi-agency wide contracts that could
result in better pricing and lower costs for purchase card transactions.

From October 2011 through December 2012, the Smithsonian spent approximately
$1,253,000 on office supplies. In December 2011, GSA reported that federal
agencies estimated cost savings from strategic sourcing ranged from 6 to 20
percent on their purchases of routine office supplies. While some cardholders may
have purchased office supplies from low-cost vendors, to estimate the potential for
savings, we applied the GSA cost saving percentages to the amount spent on office
supplies. Based upon our calculations, we estimate that the Smithsonian could have
realized savings of up to $251,000 on office supplies purchased from October 2011
through December 2012.

Recommendations

To reduce purchasing costs, we recommend the Director of the Office of Contracting
& Personal Property Management:

   4. Develop and implement a strategic sourcing program that encompasses all
      procurement methods, including purchase card transactions. This program
      should include policies and practices that ensure effective strategic sourcing
      through purchase card transactions as recommended by OMB Circular A-123,
      Attachment B.

   5. Encourage purchase cardholders to increase participation in Smithsonian
      blanket purchase agreements and GSA-identified strategic sourcing vendors.

Management provided support for completion of recommendation 5. We confirmed
that management revised its periodic reminder on compliance with purchase card
use and recordkeeping policies and procedures to include references to GSA and SI
blanket purchase agreements. We will close this recommendation effective the date
of this report.

Cardholders May Have Unnecessarily Paid State and Local Sales Tax

The federal government, including the Smithsonian, is not required to pay state and
local taxes for purchase card transactions. Yet Smithsonian purchase cardholders
are not always preventing state and local taxes from being charged to their cards.
Based on the transaction reports from the JPMC PaymentNet system used to
monitor purchase card activity, the Smithsonian may have unnecessarily paid up to
$26,000 in state and local sales taxes from fiscal year 2012 through the first
quarter of fiscal year 2013. Although outside of the scope for this audit, the records
also showed that the Smithsonian may have unnecessarily paid an additional
$77,600 in state and local sales taxes from fiscal years 2009 through 2011. The
actual magnitude of erroneous sales tax payments is unknown because the JPMC
reports do not accurately capture sales tax data, and approving officials and


                                         10
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


cardholders do not always reconcile the amounts on these reports to the amounts
on the cardholders’ receipts.

According to the OMB Circular A-123, all taxes paid by the federal government
must be recovered. The Circular, as well as Smithsonian purchase card policies,
require that cardholders provide vendors with proof of tax exempt status and make
good faith attempts to recover these payments.

Smithsonian cardholders may have inappropriately paid sales tax for a number of
different reasons:
    • Although Smithsonian policies and OMB guidance clearly state that taxes
       should not be paid, cardholders were not always able to prevent vendors
       from charging the taxes because some vendors refuse to accept the
       Smithsonian’s tax exempt status. For example, some online vendors’
       websites will not recognize that the purchase is tax exempt. Additionally, if
       the merchant refuses to waive the tax, Smithsonian policies permit
       cardholders to pay it.

   •   Although Charge Card Program staff stated that they encourage recovery of
       sales taxes paid, cardholders may not have attempted to exercise the tax
       exemption or were not always successful in recovering sales tax charged.

Lastly, we noted that in some instances JPMC reports inaccurately reported sales
tax paid by cardholders, which may result in confusion as to whether sales tax was
paid or not. Although our review of the sample of cardholder documentation
showed that some vendors had not charged the cardholders sales tax, the JPMC
transaction reports inaccurately reported the taxes had been paid. To verify the
accuracy of the JPMC reports, cardholders and approving officials must conduct
thorough monthly reconciliations of purchase card transactions, as required by
Smithsonian purchase card policies and procedures.

Failure to recover state and local sales tax payments increased the cost of the
Smithsonian’s charge card purchases. Any amount of sales tax paid represents
funds that could have been put to better use.

Recommendation

To prevent unnecessary sales taxes from being paid, we recommend that the
Director of the Office of Contracting & Personal Property Management:

   6. Develop thresholds for recovering erroneous tax payments, and initiate
      corrective action when necessary.




                                          11
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


                                                                       APPENDIX A

OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this audit was to determine if the Smithsonian exercises effective
management and oversight of the Smithsonian government purchase card
program.

To accomplish our objective, we reviewed Smithsonian policies and procedures for
the Charge Card Program. We also reviewed guidance from the General Services
Administration (GSA) and the Office of Management and Budget on purchase card
program management. We spoke to Charge Card Program staff about
administrative and transaction reports available from the JPMC PaymentNet system,
as well as their access to the system. We reviewed monthly and quarterly
compliance reports prepared by the Charge Card Program Manager.

We met with OCon&PPM’s Charge Card Program staff to assess their policies and
procedures for providing oversight of the purchase card program. Since
Smithsonian Enterprises maintains a separate process for reviewing and approving
their purchase card transactions, we met with their Comptroller to discuss and
assess their process and review documentation. We also obtained Smithsonian
employee termination reports from the Office of Human Resources.

We obtained data from the JPMC PaymentNet system for all purchase card
transactions from October 1, 2011, through December 31, 2012. We used data
analysis software to assess the reliability, accuracy, and completeness of this data.
Use of the data analysis software allowed us to analyze all transactions for unusual
spending activity and other purchasing trends. Using IDEA Data Analysis Software
and Microsoft Excel, we identified transactions in the following categories:

   •   Transactions with high-risk Merchant Category Codes
   •   Transactions greater than $3,000
   •   Transactions made with cards designated for payments of shipping charges
   •   Underutilized cards
   •   Transactions made during the weekend
   •   Possible split and duplicate purchases
   •   Transactions including sales tax payments
   •   Transactions by separated employees

We judgmentally selected 115 purchase card transactions for review and requested
supporting documentation from the responsible cardholders and approving officials.
We reviewed the supporting documentation and contacted the cardholders and
approving officials, as necessary. We also contacted the Charge Card Program staff
for additional information regarding their review and actions taken on questionable




                                         A-1
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL


                                                                        APPENDIX A

OBJECTIVES, SCOPE, AND METHODOLOGY (continued)

transactions. We also reviewed account information for 32 accounts that were
possibly underutilized, used after the cardholder’s separation date, or used
exclusively for shipping transactions.

To evaluate whether approving officials were providing adequate oversight and
review of purchase card transactions, we reviewed PeopleSoft approval reports. We
reviewed the PeopleSoft reports to identify approving officials that frequently failed
to approve transactions within PeopleSoft. Using the JPMC data, we determined the
value of the unapproved transactions. We also reviewed purchase card transaction
documentation provided by cardholders for evidence of approving official review.

To determine whether the Smithsonian had a strategic sourcing program to analyze
spending information, we interviewed Charge Card Program staff, as well as
OCon&PPM management. We analyzed spending activity by vendor and determined
whether cardholders were actively utilizing strategic sourcing vendors identified by
GSA. To project possible cost savings, we researched cost savings rates identified
by other agencies and applied these rates to Smithsonian purchasing costs.

To determine whether the Smithsonian improperly paid state and local taxes on
purchase card transactions, we reviewed documentation from a judgmentally
selected sample of 12 transactions. We compared purchase receipts to verify the
accuracy of the JPMC data. We also followed up with cardholders to determine
whether the sales tax had been recovered when paid.

We conducted this performance audit in Washington, D.C. and Arlington, Virginia
from January 2013 through December 2013, in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence we obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                         A-2
SMITHSONIAN INSTITUTION         OFFICE OF THE INSPECTOR GENERAL


                                                 APPENDIX B

MANAGEMENT RESPONSE




                          B-1
SMITHSONIAN INSTITUTION            OFFICE OF THE INSPECTOR GENERAL


                                                    APPENDIX B

MANAGEMENT RESPONSE (continued)




                             B-2
SMITHSONIAN INSTITUTION            OFFICE OF THE INSPECTOR GENERAL


                                                    APPENDIX B

MANAGEMENT RESPONSE (continued)




                             B-3
SMITHSONIAN INSTITUTION            OFFICE OF THE INSPECTOR GENERAL


                                                    APPENDIX B

MANAGEMENT RESPONSE (continued)




                             B-4
SMITHSONIAN INSTITUTION            OFFICE OF THE INSPECTOR GENERAL


                                                    APPENDIX B

MANAGEMENT RESPONSE (continued)




                             B-5
SMITHSONIAN INSTITUTION                  OFFICE OF THE INSPECTOR GENERAL


                                                          APPENDIX C

CONTRIBUTORS TO REPORT

Brian Lowe, Supervisory Auditor
Kimm Richards, Auditor-in-Charge
Kayla Norwood, Auditor




                                   C-1
